I

7014
IN THE SUPREME COURT OF THE UNITED STATES
Supre

m,eCo^Tus
FILED

DEC 3 0 2020
OFFICE Of

Michael Alan Bruzzone, Petitioner
And
Intel Corporation and ARM Inc., and pursuant 28 U.S.C. § 1391(c)(3) the parent
Japanese headquartered and United Kingdom domicile Softbank ARM Holdings
Respondents

'*ji'

t

ON PETITION FOR WRIT OF CERTIORARI to the
UNITED STATES COURT OF APPEALS for the NINTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Michael Alan Bruzzone
Civic Servant of the Federal Trade Commission
Advocate for “lawful class” at 42 U.S.C. § 1981(a)(b)
U.S. Attorney designate; 31 U.S.C. § 3730(b)(1) at (c)(3)
(FCA) Relator Original Source
Acting individually in pro se
3766 Via Verdi
Richmond, California 94803
(415) 250-4652
1

Iy§CLERK

E

E

QUESTIONS PRESENTED
I,

On District Court acceptance of appellant’s $505 filing fee can 9th Circuit
Order appeal CLOSED forgetting intake and review of compulsory briefs?

II.

In 15 U.S.C. § 1 Intel Inside® price fix controversy can in-region District
and Appellant Courts deny a federal auditor engaged by U.S. Congress at
15 U.S.C. § 5 cognizable § 15, enlisted by attorneys of the Federal Trade
Commission as case matter discovery aid and consent order monitor too
xL

validate said theft his Constitution 14 guarantee, too establish opposition
network frivolous manufacturer denied his a) due process, confrontation,
examination, privileges, protections? Where defendants and under their
color of law, defame the auditor retained by Congress at Constitution 9
suspect to quash discovery 18 USC §§ 1505, 1512, 1513, 1516, 1519, 1961.
b)

Can Judges deny equity on associate technique of repeating errors?

c)

To send the federal monitor auditor in circles encroaching civil rights?

d)

To cover up commission of felonies cognizable by courts of United States?

e)

Too defraud the United States at 18 U.S.C. § 1371?

II.

In same civil controversy can District and Appellant Courts deny 14th
amendment guarantee to quash speech? Thereby conceal the corporate
defendant’s reliance on California anti-SLAPP too libel a federal auditor
engaged in Congressional policy administration, defendants reversing who
is public operator too cover up their enterprise organized crime infiltration
detrimental to United States, States of United States, Citizens of the United
States, commerce on affirmative antitrust determinations; FTC v Intel Corp.
Docket 9341 and EUCC 37.990 v Intel Corp., on Federal and State Agent’s
discoveries 15 U.S.C. §1,2 cognizable § 15 and 18 U.S.C. §§ 2, 3, 4, 241,
242, 371, 1001, 1371, 1956, 1957, and pursuant interstate commerce at 18
U.S.C. § 1962(c) cognizable § 1964(c) ?
2

PARTIES to the PROCEEDING
Michael Bruzzone, in pro se addressing retaliatory harms, defendant employee
targeting pursuant Intel Inside® price fix concert cartel association, is attorneys
of Federal Trade Commission enlisted discovery aid on industry witness; FTC v Intel
Corp. Dockets 9288 beginning May 1998, thereafter Docket 9341 15 U.S.C. § 5
investigations, and currently federal attorneys Docket 9341 consent order monitor. Is
designated original source v Intel Corp. “Intel Inside® microprocessor in box and
computer case “metered discriminatory buyer price fix cost charge” on December 10,
2008. Confirmed U.S. Department of Justice March 2011, recognized by Congress
June 2007, May 2011, other earlier dates. Acknowledged original source by Court of
Appeals for the Federal Circuit October 2014 subject procurement theft valued > than
$10,000 and at 28 U.S.C. § 1346(a)(2) validation; EUCC 37.990 v Intel Corp., Inside
Inside® “avoidable consumer cost” charge recovery $1.43 billion May 2009.
Bruzzone is recognized on letter by 30 States Attorneys General as Intel Inside® price
fix original source, expert or witness. This auditor/monitor supports Congress and an
additional 82 private plaintiff actions at 42 U.S.C. § 1981(a)(b) “lawful class” v. Intel
associates “lawless” accomplices at 18 USC §§ 3, 4, 371, 1341, 1512. 1513, 1516,
1519, 1956, 1957, 1961, 1962(c), 42 U.S.C § 1985(1)(2)(3), Clayton, and in the State
of California on Cartwright Act.
United States domestic Intel Corporation represented by William Faulkner and
James McManis, McManis-Faulkner Law Group, 50 West San Fernando Street, 10th
Floor, San Jose, CA 95113.
United States domestic ARM Incorporated and pursuant 28 U.S.C. § 1391(c)(3)
the parent Japanese headquartered & United Kingdom domicile Softbank ARM
Holdings pic, represented by Mr. Brian Affrunti, Burke Williams Sorensen Law LLP,
60 South Market Street, Suite 1000, San Jose, California 95113.
In accordance with 28 U.S.C. § 2403(a) this Petition is served on the Solicitor
General of these United States, Room 5616, Dept, of Justice, 950 Pennsylvania Ave.,
N.W., Washington D.C., 20503-0001; copied Speaker of the House Pelosi, Chair and
Ranking Member Senate Judiciary Committee, House Energy/Commerce Committee,
House Oversight and Reform Committee, Senate Special Intelligence Committee and
California 11th District Representative Congressman Mark DeSaulnier.
3

i

i

TABLE OF CONTENTS
Page
QUESTIONS

2

PARTIES to the PROCEEDING

3

TABLE OF PERTINENT AUTHORITIES

5

CONSTITUTION, STATUTES, PROCEDURES

9

JURISDICTION

10

CASE STATEMENT

11

FACTS OF THE CONTROVERSY

14

LAW ARGUMENTS

15

REASON FOR GRANTING THE WRIT

23

CONCLUSION and RELIEF SOUGHT

24

CERTIFICATE OF COMPLIANCE FORM AND WORD COUNT

26

EXHIBITS -

ii

Ninth Circuit Mandate

27

Ninth Circuit ORDER Denying Alter or Amend Judgment; filed 11/5/20

28

Ninth Circuit General Docket Report Appeal 20-15326

29

Ninth Circuit ORDER dismissing Appeal 20-15326

31

Proofs of $505 Appeal filing fee payment and receipt

j

32-34

Eastern District of California Minute Order; “renew
request to proceed forma pauperis upon filing appeal”

35

Eastern District of California Case Summary 2:18-cv-00865 KJM DB

36

Eastern District General Docket Report

37

Eastern District Order dismissing case matter

42

Eastern District Magistrate Judge recommendations

44

Certificate of Service

56
4

TABLE OF AUTHORITIES
Page
Nizam-Aldine v City of Oakland, 47 Cal. App. 4th 364 (Cal. Ct. App. 1996)

20

Ostrofe v H.S. Crocker Company, 740 F.2d 739 (9th Circuit 1984)

20

Patapoffv Vollstedt’s, Inc., 267 F.2d 863,865 (9th Cir. 1959)

17

Pickford v Talbot, 225 U.S. 651 (1912)

25

Pierre v Bemuth. Lembeke Company, 20 F.R.D. 1156 (S.D.N.Y)

18

Radovich v Nat’l Football League, 352 U.S. 455 (1957)

20

R.C. by Ala. Disabilities Advocacy Program, 969 F. Supp. at 691
citing Broyhill Furniture Industries Inc. v. Craft Master Furniture
Corp., 12 F.3d 1080, 1085-86 (Federal Circuit 1993)

18

Rodgers v Watt, 111 F.2d 456,459 (9th Cir.1983)

16

Root Refining Co., v Universal Oil Pdts Co., 169 F.2d 514 (3rd Cir 1948)

18

Schwab v Bullock’s Inc., 508 F.2d 353,355 (9th Cir. 1974)

17

Sedima S.P.R.L v Inrex Co., 105 S.Ct 3275, 3285 (1985)

20

Smith v Maldonado, 72 Cal.App.4th 637, 646 & n.5 (Cal. Ct. App. 1999)

20

Springer v U.S., 388 A.2d 846,854 (D.C. 1978)

13

Spurr v United States, 174 U.S. 728, 735

12, 20

Staren v American National Bank & Trust Company of Chicago,
529 F.2d 1257, 1263 (7th Cir. 1976)

16

Stern v United States Gypsum, 547 F.2d 1329

20

Strombergv California, 28 U.S. 359

20

Taylor v Triangle Porsche-Audi, Inc., 27 N.C. App 711, 717 (1975)

24

Tellis v United States Fidelity & Guarantee Co., 805 F.2d 741, 748
(7th Cir. 1986)

20

7

TABLE OF AUTHORITIES
Page
United States v Throckmorton 98 U.S. 61 [25 L. Ed .93] quoting
Clark v Clark, California Appellate, 4th District, September 5,1961
Watson v Ault, 525 F.2d 886, 891-92 (5th Cir. 1976)
Weinberg v Feisel, 110 Cal.App.4th 1122, 2 Cal.Rptr.3d 385, 392 (2003)

16,18

15
21, 21

West Virginia Oil and Gas Co., v George E. Beece Lubler Co.,
g213 F.2d 702 (5th Cir. 1954)

19

Wilson v Garcia 471 U.S. 261 (1985)

20

Woodall v Foti, 648 F.2d 268, 271 (5th Cir. 1981)

15

Woods v Severson 9, F.R.D. 84 (D. Neb 1948)

19

8

CONSTITUTION, STATUTES, PROCEDURES
Core on the questions - “Defendants have not established beyond doubt
plaintiff can prove no set of facts in support of his defamation and tampering
claims on opposition network frivolous manufacture”, Conley v Gibson,
Constitution 14th; confrontation, due process, equal protection, privileges at
15 U.S.C. §§ 1,2, 5, 15, 22 Eastern District of California is a proper venue.
Federal Rules of Civil Procedure 59(e); motion to alter or amend judgment
Federal Rules of Civil Procedure 60(b)(1); mistake
Federal Rules of Civil Procedure 60(b)(3); attorneys or other fraud(s)
Federal Rules of Civil Procedure 60(b)(6); any other reason justifying relief
Federal Rules of Civil Procedure 60(d)(3); disabling justice process
42 U.S.C. § 198 l(a)(b); equal rights under the color of law and in State § 1983
42 U.S.C. § 1985 (1)(2)(3); conspiracy to interfere in civil rights, concert acts
18 U.S.C. 241; conspiracy against rights; targeting Bruzzone and “lawful class”
18 U.S.C. 242; deprivation of civil rights under color of law
Ancillary Constitution 9th amendment; disparagement of Congressional enlisted agent
15 U.S.C. § 5 cognizable § 15 under Sherman and Clayton Act
31 U.S.C. § 3730(b)( 1 )(c)(3); responsibility under Federal False Claims Act
18 U.S.C. § 1516; interference in a federal audit
18 U.S.C. § 1516; destruction, alternation, falsification of records
18 U.S.C. § 1961; racketeering activity
18 U.S.C. § 1962(c)(d); conspiracy aiding robbery, collection of unlawful debt
18 U.S.C. § 1964(c); cognizable interstate commerce crime affecting “lawful class”
Tort - 15 U.S.C. § 1, 2, 15(a); jurists promoting legal service market boycott
18 U.S.C. § 2(a)(b); principles, commission of an offense
18 U.S.C. § 3; when accessory after the fact
18 U.S.C. § 371; conspiracy to commit offense, defraud
18 U.S.C. § 1001 a(l)(2)(3); false statements, entries, schemes
18 U.S.C § 1341; frauds and swindles
18 U.S.C. § 1505; obstruction of proceedings before departments
18 U.S.C. § 1510; obstruction of criminal investigations
18 U.S.C. § 1512; witness tampering
28 U.S.C. § 455(a)(b)( 1 )(5)(iv) multi-basis for judicial recusal
9

JURISDICTION
1)

Jurisdiction of the U.S. Supreme Court is invoked under 28 .S.C. § 1245(1).

2)

9th Cir. MANDATE entered Nov. 13, 2020, Motion to Stay July 14, 2020.

3)

ORDER denying appellant petition at FRAP 40, Motion to Alter or Amend
Judgment pursuant FRCP 59(a)(1)(b) for FRCP 60(B)(1)(3)(6) cause is
entered November 5, 2020 following Appellant filing on July 14, 2020.

4)

Appeal is dismissed June 2, 2020 entered same day according to 9th Circuit
General Docket statement. But according to Eastern District of California
General Docket statement appeal dismissal is not entered until 6 days later
on June 8, 2020.

5)

Appellant Statement appeal should go forward is entered on May 14, 2020.

6)

Appellant Motion to seeking Forma Pauperis is filed March 19, 2020 and
remains unaddressed by Ninth Circuit. No notice is given to pay filing fee.

7)

Waiting for forma pauperis determination appellant pays $505 appeal filing
fee entered received by Eastern District Court of California on July 7, 2020.

8)

Appellant and Appellees are denied confrontation to brief Ninth Circuit.

9)

Appeal is brushed aside to question the decision of a lower court; whether
defendants have established beyond doubt plaintiff can prove no set of facts
substantiating on fact and law their corporate defamation to quash a federal
antitrust audit and its auditor/monitor, Conley v Gibson, 355 U.S. 41, 45
(1957).

10

1\
I

CASE STATEMENT
This wholly unique and original Petition presents Federal statute with State

i

Code and appeal filing fee administrative question concerning this continuing in­
region associate network corporate political rights conundrum1 for U.S. Supreme
Court reflection, too opine on topic any of the three questions presented.
Bruzzone case matters over 21 years pursuant Bauman v United States District
Court, 557 F.2d 650 (9th Cir. 1977) may be so mired at (2) “damaged or prejudiced in
ways not correctable on appeal”; where at (4) “district and appellate court(s) make off
repeated error(s) or manifest a persistent disregard for [Constitution guarantees] and
specific federal rules” raise[s] important problems, or legal issues of first impression”.
Can federal district and appellate judge’s intentionally error withholding
U.S. Constitution 14th guarantee to confrontation to avoid disposition of facts and
law on the merits, the raising of critical discovery issues, by inhibiting due process
and equal protection against the deprivations of “life, liberty and property without
due process of law”2, are fundamental elements of procedural fairness accessing
the question “beyond doubt”. Where appellate judges mimic District Ct. “frivolous”,
knowing confrontation is denied at the District Court level and also do deny at the
appellate level. Rather than hear to rule on merit “beyond doubt” perpetuates ‘inDistrict’ and ‘in-Circuif ignorance. Throws a veil over speech that is counter to
1 “Scholars have argued appellate remedies were part of due process rights recognized either at common
law or at least by 1868, when Fourteenth Amendment was adopted. Resting this argument on “writ of
error” which facilitated correction of legal error by higher court as a matter of right”. Casandra Burke
Robertson, The Right to Appeal, Case Western Reserve University School of Law, (2013) Faculty
Publications, 58 see at footnotes 81, 82, North Carolina Law Review, 91, REV. 1219
2 U.S. Constitution Amendment V, :Nor shall any person be deprived life, liberty or property without due
process of law”
11

safeguarding 1st amendment freedom on this two decade long pattern of in-region
conduct by corporate executives, jurists, law enforcement do conceal established
antitrust 15 U.S.C. §§1,2 violations on federal audit at 15 U.S.C. § 15 subject 18
U.S.C. §§ 1516, 1519 concealing the commission of felonies cognizable by courts
of the United States negated and covered up by in-region Courts and US Attorney
Northern California District. Enables multiple corporate entities to defraud United
States at 18 U.S.C. § 1371 harms both country and ‘lawful citizens’3 subject 42
U.S.C. § 1981 (a)(b) parallel 18 U.S.C. §§ 241, 242 at 42 U.S.C. 1985(1)(2)(3).
On Federal Trade Commission, this auditor’s and EU Competition Commission
discovery validates Intel Inside 15 U.S.C. §§1,2 violation, “Doctrine of Willful
blindness is well established in the law . . . defendants cannot escape [the federal
questions] by deliberately shielding themselves from clear evidence of critical
[civil and criminal] facts are strongly suggested by the circumstance”, Spurr v U.S,
174 U.S. 728, 735
Questions are associated with Eastern District and Ninth Circuit denial of
defendant confrontation. “Defendants have not established beyond doubt plaintiff
can prove no set of facts in support of his claim [s] for relief’, Conley v Gibson,
355 U.S. 41, 45 (1957). Nor is the matter frivolous, “if at least on issue or claim is
found to be non frivolous, leave too proceed in forma pauperis on appeal must be
granted”, Dixon v Pitchford, 843 F.2d 268, 270 (7th Circuit 1988).

3 At 42 U.S.C. § 1981 (1)(2) Intel Inside® price fix recovery ‘lawful class’ verse Intel Corp. associate
‘lawless class’ subject in-State § 1983 at 42 U.S.C. § 1985(1 )(2)(3) pursuant 18 U.S.C. § 241, 242,
1505,1510

12

When highly factual and subjective questions of intent, conduct and pur­
pose are at issue, “summary procedures should be used sparingly” because “the
proof is largely in the hands of the alleged conspirators.”; Carr Carriers, 745 F.2d
at 1106; quoting Poller v Columbia Broad. Sys., 368 U.S. 464, 373 (1962). On
federal and States discovery [Bruzzone claim of] 42 U.S.C. §§ 1983, 1985(1)(2)(3)
conspiracy is established because the organized acts across the individual actors are
criminal; FTC v Cement Institute, 333 U.S. 683 (1948).
“Confrontation clause is violated when a trial court precludes a meaningful
degree of cross examination”, Springer v U.S., 388 A.2d 846, 854 (D.C. 1978). “The
curtailment of cross examination is rendered more severe when a government witness
is involved; under such circumstances, extensive cross examination ... [is] required
to satisfy confrontation guarantee”, Lawrence v U.S., 482 a.2d 374, 377 (DC 1984).
Under Confrontation Clause “testimonial” out of court statements and other
hearsay is not admissible if the accused did not have the opportunity to cross examine
the accuser or the accuser is unavailable at trial, Crawford v Washington, 541 U.S. 36,
2004. To (1) prevent an officer of the United States from performing his/her duty, (2)
[in a] corporate political conspiracy to obstruct justice in federal and state courts, (3)
intended too deprive victims of equal protection, equal privileges and immunities”;
Kush v Ruteledge, 460 U.S. 719, 103 S Ct at 1487 (1983). Four types of conspiracies
will be established; (1) conspiracy to interfere with the performance of federal duties
by federal officers; (2) conspiracy to interfere with justice in the federal court(s); (3)
conspiracy to interfere injustice in the state courts “intent to deny any citizen due and
equal protection of the law”; (4) private conspiracy to deny person or class of persons
13

equal protection of the laws are matters for trial not appeal. Ninth Circuit 20-15326
should be sent back to Eastern District of California for discovery and trial, id.
Commentators have argued that appeals are integral to the protection of sub­
stantive constitutional rights. See Arkin, “[S]o much of the constitutional (criminal)
law is woven around the availability of an appeal to effectuate explicit constitutional
guarantees that appeals are constitutionally necessary whenever any explicit constitu­
tional right is implicated”. Pursuant Henry P. Monahan, in First Amendment “Due
Process” 82 Harvard Law Review 518, 551 (1970), “The first amendment due process
cases have shown rights are fragile and can be destroyed by insensitive procedures; in
order to completely fulfill the promise of those cases, courts must thoroughly evaluate
every aspect of the procedural system which protects those rights.”
FACTS OF THE CONTROVERSY
Notice of appeal is filed February 26, 2020 “defendants have not established
beyond doubt that plaintiff can prove no sets of facts in support of his (defamation)
claims for relief’; Conley v Gibson, 355 U.S. 41, 45 (1957) Iqbal quoting Twombly.
On May 14, 2020 Appellant files at Ninth Circuit “Petitioner Statement that
Appeal Should Go Forward”, and is exactly as it should be, in form and content an
amended complaint that could have been sought by Eastern District. Bruzzone claims
in matter are both cognizable and meritorious. Bruzzone fails to comprehend how his
claims are frivolous non examined, unheard at Eastern District and at Ninth Circuit
subject FRCP 60(b)(l)(3)(6) on Bivens v Six (Un)known Narcotics Agents, 403 U.S.
388 (1971) and Monell v Department ofSocial Services of the City of New York, 436
U.S. 658 (1978) given the history in these v Intel Corp. matter’s of Constitution 1st
14

(speech and association) 5th and 14th amendment denials; contract, due process, equal
protection, searching examination, confrontation denial’s prejudicing this Plaintiff
Appellant who is auditor/monitor, federal and states witness in Intel Corp. antitrust,
industry, corporate and consumer Intel Inside® ‘price fix’ robberies and espionage
matter retained by Congress at Constitution 9th, Federal Trade Commission 15 U.S.C.
§§ 5 cognizable § 15 @ 18 U.S.C. § 1962(c) in any District of the Nation at § 22 has
been denied plaintiff defendants confrontation; at Eastern District of California and
on payment of filing fee at 9th Circuit Appellate Orders matter closed without briefs.
LAW ARGUMENTS
Fourth, Fifth and Ninth Circuits state a frivolous claim is without arguable
substance in law or fact, Franklin v Murphy, 745 F.2d 1221, 1227-28 (9th Cir. 1984);
Woodall v Foti, 648 F.2d 268, 271 (5th Cir. 1981); Boyce v Alizaduh, 595 F.2d 948,
951-52 (4th Cir. 1979); Watson v Ault, 525 F.2d 886, 891-92 (5th Cir. 1976).
Addressing the contention frivolous, “a complaint is legally frivolous when
it lacks an arguable basis in law or fact; “Neitzke v Williams, 490 U.S. 325 (1989).
Rather, Plaintiff and Appellant succinctly detail’s the cognizable nature of his factual
claims on Constitution, statute, case law and federal discovery. On Conley v. Gibson
355 U.S. 41 (1957), “a complaint should not be dismissed ... unless it appears
beyond doubt the plaintiff can prove no set of facts in support of a claim that entitle
him to relief’. All ambiguities or doubts must also be resolved in the plaintiffs favor.
See Jenkins v. McKeithen, 395 U.S. 411, 421 (1969). Complaint cannot be dismissed
“simply because the court finds the plaintiffs allegations unlikely” noting the “age

15

old insight allegations might be strange but true”, said Supreme Court Justice Sandra
O’Conner in Denton v Hernandez, 505 U.S. 25 (1992) (from Ninth Circuit).
Jurisdiction of court to reform a judgment on the grounds of extrinsic fraud
has never been questioned. “Where the unsuccessful party has been prevented from
exhibiting fully his case, by fraud or deception practiced on him by his opponent(s)
as these and in similar cases, which show that there has never been a real contest in
[any] trial or hearing of any [Bruzzone] case [matter], are reasons for which a new
suit may be sustained to set aside and annul the (former) judgment or decree, and
open the case for a new and fair hearing”; United States v Throckmorton 98 U.S. 61
[25 L. Ed .93] quoting Clark v Clark, California Appellate, 4th District, September 5,
1961. “In all these cases and many others which have been examined, relief has been
granted, on the ground that, by some fraud practiced directly upon the party seeking
relief against the judgment or decree, that party has been prevented from presenting
all of his case [which is also a nation’s case] to the court” id.
Rule 60, Jike all Federal Rules of Civil Procedure, “is to be liberally construed
to effectuate the general purpose of seeing that cases are tried on the merits”; Rodgers
v Watt, 722 F.2d 456, 459 (9th Cir. 1983). In determining Rule 60(b) applicability,
courts should be mindful that rules are to be construed to achieve just determination
of every action* Fed.R.Civ.P.1, “to effectuate the general purpose of seeing cases are
tried on merit and to dispense with technical procedural problems”. Staren v
American National Bank & Trust Company of Chicago, 529 F.2d 1257, 1263 (7th Cir.
1976); “[S]peaking generally, [the considerable body of federal decisions has] been in
marked harmony with the proposition that Rule 60(b) is a remedial rule to be liberally
16

officers of the court, and when an attorney exerts improper influence on the court “the
integrity of the court and its ability to function impartially is directly impinged”; R. C.
by Ala. Disabilities Advocacy Program, 969 F. Supp. at 691 citing Broyhill Furniture
Industries Inc. v. Craft Master Furniture Corp., 12 F.3d 1080, 1085-86 (Federal
Circuit 1993).
On setting aside judgment on misrepresentation of evidence, Hazel-Atlas
Glass Co. v. Hartford-Empire Co., 322 U.S. 238 (1944), “a court may at anytime set
aside a judgment after discovered fraud upon the court... the inherent power of a
court to investigate whether a judgment was obtained by fraud is beyond question”.
“Power to unearth such a fraud is the power to unearth it effectively”, Root Refining
Co., v Universal Oil Products Co., 169 F.2d 514 (3rd Cir 1948). On issues of merit “to
vacate judgments whenever action is appropriate to accomplish justice”; Klapprott v
United States, 335 U.S. 601, 69 S.Ct. 384, 93 L.Ed. 266 (1949) and where the
situation could not be “fairly or logically classified as mere ‘neglect’ on (petitioners)
part.” Bruzzone has never not defended from defendant fraud whatever the institution
of ‘errors’ including Ninth Circuit; subject only to “a reasonable time” Ackermann v
United States, 340 U.S. 193, 197-202 (1950). On new discovered evidence Bruzzone
is always denied “must be of material nature and so controlling as probably to induce
a different result”, Giordana v McCartney, 385 F.2d 154 (3rd Cir. 1967); and “when­
ever action is appropriate to accomplish justice”; Pierre v Bemuth. Lembeke Co., 20
F.R.D. 1156 (S.D.N.Y)
Jurisdiction of a court in an independent suit to reform a judgment on grounds
of extrinsic fraud has never been questioned Throckmorton. “Extrinsic fraud induces
18

one not to present a case in court, deprives one of the opportunity too be heard or
prevents discovery or obtaining information”; Cornell Law School LII Wex. Pursuant
Marshall, relief from intrinsic fraud has also been granted; “ West Virginia Oil and
Gas Co., v George E. BeeceLubler Co., g213 F.2d 702 (5th Cir. 1954). Distinction
between fraud on the court and fraud relieved by independent action is ambiguous.
See, Moore & Rogers, at 692 n266. Cases under the Amended rule of March 1946
have not distinguished between the two types; E.g., Dowdy v Hawfield, 189 F.2d 637
(D.C. Cir. 1950); Hayden v Rumsey Products, 96 F. Supp 988 (W.D.N.Y. 1951)
(suppression of defense). Relief has been granted where consent order was based on
erroneous representations by law officials; Flemming v Huebsch Laundry 159 F.2d
581 (7th Cir. 1947). Impoverished party attempting too proceed without counsel, filed
an answer that did not comply with the rules; Woods v Severson 9, F.R.D. 84 (D. Neb
1948).
Attempting to free himself from defamation Bruzzone is subject continuous
denial of his 14th amendment guarantee to expose, through discovery and extensive
examination defendant fraud(s) subject 15 U.S.C. § 1, 18 U.S.C. 1962c, 42 U.S.C.
1981(a)(b), in-state §1983 proximate concert acts 42 U.S.C. § 1985(1)(2)(3) subject
Bivens v Six (Un)known Narcotics Agents, 403 U.S. 388 (1971); Cherry St., LLC, v
Hennessee Group LLC, 573 F.3d 98 (2nd Cir. N.Y. 2009), Continental Ins. Co. v
Pierce County. Wash., 690 F.Supp. 930 (W.D. Wash 1987); Davis v Welchler U.S.
22, 24; Global-Tech Appliances, Inc., v SEB S.A., Supreme Court of United States,
Certiorari to U.S. Court of Appeals for Federal Circuit No 10-6; argued February 23,
2011; Int 7 Boxing Club, 348 U.S. 236, (1955); Kapp v National Football League, 586
19

F.2d 644, 648-49 (9th Circuit 1978); KehrvA.O. Smith Corp. 521 U.S. 179 (1979);
Klor’s Inc. v. Broadway-Hale Stores, Inc, 359 U.S. 207 (1959); Monell v Department
of Social services of the City of New York, 436 U.S. 658 (1978); Monroe v Pape, 365
U.S. 167, 196 (1961); Radovich v Nat’l Football League, 352 U.S. 455 (1957),
Sedima S.P.R.L v Inrex Co., 105 S.Ct 3275, 3285 (1985), Stem v United States
Gypsum, 547 F.2d 1329, Stromberg v California, 28 U.S. 359; NAACP v Alabama,
375 U.S. 449; OstrofevH.S. Crocker Company, 740 F.2d 739 (9th Circuit 1984);
Spurr v United States, 174 U.S. 728, 735; Tellis v United States Fidelity & Guarantee
Co., 805 F.2d 741, 748 (7th Cir. 1986); Wilson v Garcia 471 U.S. 261 (1985). Denied
relief, “defendants have not established beyond doubt plaintiff can prove no set of
facts in support of [Bruzzone] claim[s] for relief’; Conley v Gibson, 355 U.S. 41, 45
(1957). Nor can defendants prove Bruzzone claims are frivolous; Neitzke v Williams,
Dixon v Pitchford. Let them try to prove “no merit” - send this case to discovery.
In cases involving public figures or matters of public concern, the burden is on
the plaintiff to prove falsity in a defamation action. Nizam-Aldine v City of Oakland,
47 Cal. App. 4th 364 (Cal. Ct. App. 1996). In cases involving matters of purely a
private concern, the burden of proving truth is on the defendant. Smith v Maldonado,
72 Cal.App.4th 637, 646 & n.5 (Cal. Ct. App. 1999).
Intel defamatory use of SLAPP in federal court and ARM Inc. defamatory
furtherance in Califiomia State exhibit their concert reliance CCP §§ 391(b), 425.16,
425.17, 425.18 for their purpose of slandering to libel, in these matters, Federal Trade
Commission discovery aid Bruzzone who is 42 U.S.C. §1981 (a)(b) Intel Inside®
recovery “lawful” class Congress advocate verse Intel Corp. lawless associates have
20

no ground [to stand] on Anti-SLAPP, Bruzzone speech is protected enlisted in federal
and state agency; Hilton v Hallmark Cards, 599 F.3d 894 (2010); New.Net Inc. v
Lavasoft 355 F.Supp. 2d 1090, 1098 (C.D. Cal. 2004); at Clayton and in California
Cartwright Act.
California Anti-SLAPP provides if a motion under statute is granted, pursuant
ARM Inc. furtherance of Intel Corp. defamatory falsities and the moving respondent
demonstrates Petitioner Intel brought the federal claim for purpose of harassment, or
delay, too inhibit respondent’s public participation, too defame, too interfere with
respondent movement to exercise protected constitutional rights, or expose wrongful
injure to plaintiff and lawful class, the court shall award moving party for actual
damages; $11.4 billion in Intel Inside® price fix recovery, the funds administrative
reimbursement expense plus auditor compensatory harm for retaliation, professional
economic, Constitution and civil rights deprivation on 22 years of enlisted federal
assignment should be no less than the total compensation of any among the Intel or
ARM Chief executives engaged in Bruzzone auditor/monitor’s 22 year defamation.
California, like other states, discourages “strategic lawsuits against public par­
ticipation [where] anti-SLAPP [can] masquerade as ordinary suits but are brought too
deter citizens from exercising their political or legal rights or to punish them for doing
so.” Batzel, 333 F.3d 1024.
California appellate courts have developed multiple tests to determine whether
a defendant’s activity is in connection with a public issue. California Appellate for
First District surveyed the appellate cases and divined from three categories of public
issues: (1) statements “concemfing] a person or entity in the public eye”; (2) “conduct
21

that could directly affect a large number of people beyond the direct participants”; (3)
“or a topic of widespread, public interest” Id. at 89. In Weinberg v. Feisel the Third
District articulated a more restrictive test designed to distinguish between issues of
“public, rather than merely private, interest”, 110 Cal.App.4th 1122, 2 Cal.Rptr.3d
385, 392 (2003). First, “public interest” does not equate to mere curiosity. Second, a
matter of public interest should be something of concern to a substantial number of
people. Third, there should be closeness between the challenged statements and the
asserted public interest. Fourth, the focus of speaker’s conduct should be in the
public interest rather than a mere effort to gather ammunition for another round of
private controversy. Finally, [a] person cannot turn private information into a matter
of public interest by communicating it to a large number of people; Id. at 392-93.
Two categories of conduct to which anti-SLAPP statute applies are “any
written or oral statement or writing made in a place open to public or public forum in
connection with an issue of public interest ”, and “any other conduct in the furtherance
of the exercise of the constitutional right of a petition, or the constitutional right of
free speech in connection with a public issue or an issue of public interest. ” § 425.16,
subd. (e)
In Weinberg v Feisel, 110 Cal App 4thm 1122, 2 Ca; Rptr, 3d 385 at
California Court of Appeal, (2003) “causes of action arising out of [false] allegations
of criminal conduct, made under circumstances like those alleged in this case, are not
subject to anti-SLAPP. Otherwise, wrongful accusations of criminal conduct, which
are among the most clear and egregious types of defamatory statements, automatically
would be accorded the most stringent protections provided by law, without regard to
22

erroneous standard is significantly deferential." Pursuant Concrete Pipe and
Products v. Construction Laborers Pension Trust, 508 U.S. 602, 623 (1993), the
appellate court must accept the trial court's findings unless it's left with "definite
and firm conviction that a mistake has been committed." Bruzzone stands on his
meritorious claims, facts on law, “manifestly unconscionable” to enforce frivolous
dismissal or improper Clayton Act venue Bruzzone is “certain to prevail”, Pickford v
Talbot, 225 U.S. 651 (1912).
As soon as matter lands back in Eastern District it will move to settlement on
Bruzzone defamatory harms Defendants fearing move to additional discovery.

This petition for writ of certiorari should be granted.

Respectfully SubmiifedTJirtn i^6te January 4, 2021
Michael Bruzzone, petitioner in pro se
FBI Original Source of Intel Network RICO in 1996
FTC Invited Field Report Docket 9288; 1998 - 2000
CDOJ and NYDOJ First to Report Intel Section 1 Violation in 1998
CDOJ Lettered to Work Report, Intel 15 USC 1 Violation in 2000
SEC Notice INTC Stock Market Rig, Accounts Fraud; 2007 - 2018
U.S. Attorney Northern District FCA Relator; 2008 and current
FTC Witness Analyst v Intel Corp. Docket 9341; 2009 and current
Court of Appeal Federal Cir. acknowledges 31 USC 3729 Relator; 2014

25

